                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS


                                CLOSEOUT MEMORANDUM


11   Case Number: A03050025
                                                                        11        Page 1of 1



         I n August 2002, we referred a n allegation of plagiarism to a university for
         investigation.1 In that case, the university's Investigation Committee noted a
         proposal,2 which was a 'source' proposal in that case, contained text that appeared
         copied from two other papers.3 The PI of the source proposal is the subject of this
         case.
         We reviewed the similar text in the proposal and two papers. The text appeared in
         the first paragraph of a new section and explained the general background idea of
         why research in that area was interesting and what results had been previously
         obtained. The proposal text consists mostly of paraphrased, multi-word technical
         descriptions that would seem difficult to phrase another way; there is not a n entire,
         single sentence copied from either paper.
         The first paper is referenced a t the end of the paragraph in which the questioned
         text appears, and the second paper is referenced twice (including mentioning the
         author of the second paper by name in the text), both adjacent to text paraphrased
         from the second paper.
         The Committee described the similar text from the second paper a s paraphrased,
         and the only attribution generally required for paraphrased text is a citation to the
         source, and the subject provided not one, but two. While the similar text from the
         f ~ spaper
               t     could have referenced the first paper more frequently, there was a
         citation to the first paper in the same paragraph. Given the references, the small
         amount of questioned text, and the nature of the text, we conclude there is no
         substance to the allegation of plagiarism. Accordingly, this case is closed.




              That case was A02020007
              (footnote redacted).
            3 (footnote redacted).
